APPENDIX B

25
Case: 17-14707 Date Kifleaf:8/12/2020 Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith For rules and forms visit
Clerk of Court www cal Luscourts. gov

August 12, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 17-14707-AA

Case Style: USA v. Antonio Akel
District Court Docket No: 3:07-cr-00136-LC-EMT-I

The enclosed order has been entered on petition(s) for rehearing.

See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.

Sincerely,
DAVID J. SMITH, Clerk of Court

Reply to: T. L. Searcy, AA
Phone #: (404) 335-6180

REHG-1 Ltr Order Petition Rehearing

 
Case: 17-14707 Date R@eaf8/12/2020 Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS

FOR THE ELEVENTH CIRCUIT

No. 17-14707-AA

UNITED STATES OF AMERICA,

Plaintiff-Appellee,
versus
ANTONIO U. AKEL,

Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of Florida

ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: WILSON, EDMONDSON, and HULL, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court

having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

 

|
